No. 21-_ __

IN THE
SUPREME COURT OF THE UNITED STATES
JANICE DICKINSON,
Petitioner,
V.

RYAN SEACREST PRODUCTIONS, INC. , ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33. l (h), I certify that the Petition for a Writ
of Certiorari contains 6,104 words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33. l (d).
I declare under penalty of perjury that the foregoing is true and corr ect.
Executed on May 19, 2021.

Regina Yeh
California St
401 Wilshire
12th Floor
Santa Monica, CA 90401
(310) 496-4270 Telephone
(888) 7 44-0317 Facsimile
Counsel for Petitioner J anice Dickinson

